L. I 8'
UNITED STATES OF AMERCA

FEER TRE COMMSSION
WASHINGTON , D. C. 20580

Division of

Marketing Practices
Mary

S.

Fei nstei n

Attorney
Direct Dial:
12021 326- 3064

March 6, 1995

Lavelle S. Jesse
Assistant Vice President

Federated Funeral Directors

O. Box 19244
Springfield, IL

Re:

of America

62794 - 9244

Opinion Letter

Dear Mr. Jesse:
This letter is in response to your inquiry dated
February 24, 1995 about pre-need funeral pricing. For the sake
of clarity, I will address your questions in the order in which
they were posed.

In the factual scenarios you described, three funeral homes
agree to have one general price list (hereafter described as
consolidated GPL" ). Under Scenario 1, these homes would offer
to consumers funeral goods and services on a pre-need basis where
the prices for those goods and services would not be fixed at the
time of the execution of the pre-need contract. Under scenario
2, the same three funeral homes would offer consumers funeral
goods and services on a pre-need basis, but the prices for these
items would be fixed at the time of execution of the pre-need

contract.

Question 1 - - Would this agreement between these homes
violate any antitrust laws?
As I mentioned to you in our previous telephone conversation
on this topic, you should direct this question to the FTC'
Bureau of Competition staff.

Question 2 - - Would the consolidated GPL used by the three
funeral homes violate the Funeral Rule?

No.

The Funeral Rule requires that a funeral provider give
to inquiring persons, for retention , a GPL describing the funeral
goods and services offered by the funeral provider. The Rule

Mr. Lavelle S. Jesse - -

Page 2

March 6, 1995

it.

16 C.
requires that the GPL have an effective date on
453. 2(b) (4). I would only caution that if this GPL' s prices
are not "fixed" on the pre- need contract, the pre-need contract
must be explicitly clear on this point. The consumer should be
on notice if the pre-need contract' s prices are not fixed at the
time of execution of the pre-need contract. Any deception
concerning whether or not the prices on the pre-need contract are
fixed may be a violation of Section 5 of the FTC Act, even though
it may not be a violation of the Funeral Rule, per se.

Question 3 - - May there be a variance between the prices
delineated on each individual funeral home s GPL and the
consolidated GPL?
Yes. The Funeral Rule only requires that a funeral provider
gives a GPL with price information on it for certain items, if
offered for sale. The Rule does not address what price can be
Again, this issue should also be addressed by our
Competition Bureau staff.

charged.

I hope that this information is helpful to you. Please be
advised that the views expressed here are those of FTC staff.
They have not been reviewed, approved or adopted by the
Commission, and they are not binding upon the Commission.
However, they do reflect the opinion of those staff charged with
enforcement of the Funeral Rule.

SinCerel

